Case 19-3320, Document 44, 03/04/2020, 2792926, Pagel of 1

E.D.N.Y.-Bklyn
18-CV-162
Chen, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 4th day of March, two thousand twenty.
Present:
Pierre N. Leval,
Peter W. Hall,
Gerard E. Lynch,
Circuit Judges.
Angela Thigpen,
Plaintiff-Appellant,
v.

19-3320

Board of Trustees of the Local 807
Labor-Management Pension Fund,
Defendant-Appellee,
Carol Westfall,
Defendant.
Appellant, pro se, moves for the appointment of counsel and to proceed in forma pauperis (“IFP”).
Appellee opposes the motions and seeks sanctions, challenging the veracity of Appellant’s
representations to this Court, with emphasis on her report of income that appears inconsistent with
available New York City records of her salary. Upon due consideration, it is hereby ORDERED
that the motions are DENIED and the appeal is DISMISSED because it “lacks an arguable basis
either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also 28 U.S.C.
§ 1915(e). Appellee’s request for sanctions is DENIED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 19-3320, Document 63, 07/24/2020, 2891989, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 24th day of July, two thousand twenty,
Present:

Pierre N. Leval,
Peter W. Hall,
Gerard E. Lynch,
Circuit Judges.

Angela Thigpen,

ORDER
Docket No. 19-3320

Plaintiff-Appellant,
v.

Board of Trustees of the Local 807 Labor Management
Pension Fund,
Defendant-Appellee,
Carol Westfall,
Defendant.

Angela Thigpen filed a motion for reconsideration and the panel that determined the
motion has considered the request.
IT IS HEREBY ORDERED, that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

